y*

No.

IN THE
SUPREME COURT OF THE UNITED STATES

TRAVON JARVEL JACKSON, PETITIONER,
vs.
UNITED STATES, RESPONDENT.
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Petitioner, through counsel, asks leave to file the attached Petition for
Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
without prepayment of costs and to proceed in forma pauperis. Counsel was
appointed in the court of appeals under the Criminal Justice Act, 18 U.S.C. ยง
3006A(b). This motion is brought pursuant to Rule 39.1 of the Rules of the
Supreme Court of the United States.
Respectfully submitted,
July

2020

CARLTON F. GUNN
Attorney at Law

RECEIVED
JUL 2 " 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

